                             Office of the Inspector General

September 28, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Review of Controls Over Processing Income Alerts Which Impact Supplemental
Security Income Payments (A-05-98-21002)


The attached final report presents the results of our audit. Our objective was to assess
how effectively the Social Security Administration processes income alerts.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                                   James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



     REVIEW OF CONTROLS OVER
  PROCESSING INCOME ALERTS WHICH
  IMPACT SUPPLEMENTAL SECURITY
        INCOME PAYMENTS


  September 2000   A-05-98-21002




AUDIT REPORT

                 EXECUTIVE SUMMARY


OBJECTIVE
The purpose of this audit was to assess how effectively the Social Security
Administration (SSA) processes income alerts.

BACKGROUND
The Supplemental Security Income (SSI) program provides cash assistance to
financially needy individuals who are aged, blind or disabled. To determine if an SSI
applicant is financially eligible, SSA performs an initial determination at the time of
application and conducts periodic reviews to determine whether the recipient remains
eligible. SSI recipients are required to report events that may affect their financial
eligibility for benefits, including changes in income, resources, marital status, and living
arrangements. SSA generally relies on matching computerized data from other Federal
and State agencies to verify that the information is correct. When these computer
matches identify discrepancies between data reported by recipients and the data
recorded by these agencies, alert notices are sent to SSA field offices (FO). These
alerts require that the FOs determine if the discrepancies impact SSI benefits.

We reviewed seven categories of income alerts that are issued when computer matches
are conducted. Three of the seven alerts result from comparing earned and unearned
income data from the Internal Revenue Service (IRS) to the Supplemental Security
Record (SSR). Two alerts result from comparing IRS wage data from the SSA Master
Earnings File to the SSR. Two other alerts result from comparing State wage and
unemployment compensation data to the SSR.

RESULTS OF REVIEW
Our review disclosed that an estimated $60.4 million in SSI overpayments could have
been prevented if SSA had more effectively processed income alerts. Preventable
overpayments occurred because of the delays in resolving income alerts. Further, FOs
did not establish income estimates to reduce future benefits to offset expected income.
We estimated that 34,960 income alerts in our population had preventable
overpayments. We also determined that SSA took an average of 10 months to
complete the development of sampled alerts. (See Appendix A for the sampling
methodology.)

We also sent a questionnaire at the start of our review to the FOs included in our
sample. The reasons most frequently given by FO employees for delays in working
alerts were other workload concerns and the length of time it took to do income



                                              i
verification. The responses indicated that SSA did not have a system in place to keep
track of the length of time the alerts were unresolved. Only 2 of 50 FOs used the
“StaRZ and Stripes” software to track alerts to completion. The “StaRZ and Stripes”
software provides management reports such as a listing of all pending alerts showing
their status. The software can also provide a summary of alerts for managers at the
end of a fiscal year. We believe that SSA should use an automated process like this
system to monitor and control the processing of alerts.

RECOMMENDATIONS
We recommend that SSA:

•	 Develop a plan to ensure that income alerts are worked more timely and income
   estimates are used.

•	 Require all FOs to use an automated process, such as the “StaRZ and Stripes”
   computer software, to manage alert workloads and minimize delays in starting alert
   development.

•	 Revise Program Operations Manual System to clearly state that these income alerts
   be resolved within 60 days after being issued.

AGENCY COMMENTS
In its response, SSA has planned actions to address our recommendations except that
SSA does not believe it is always feasible to require resolution of income alerts within
60 days. The full text of SSA comments is included in Appendix B.

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We agree that SSA’s responses and planned actions adequately address our
recommendations.




                                            ii
                        TABLE OF CONTENTS

                                                                                                                 Page

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW ......................................................................................... 4

    Income Alert Processing ................................................................................... 5

    Examples of Preventable Overpayments .......................................................... 6

    Questionnaire Responses From SSA Field Offices........................................... 7

    Alert Error Analysis ........................................................................................... 8

CONCLUSIONS AND RECOMMENDATIONS .................................................... 10

APPENDICES

APPENDIX A – Sampling Methodology
APPENDIX B – SSA’s Comments
APPENDIX C – Acronyms
APPENDIX D – OIG Contacts and Staff Acknowledgments
APPENDIX E – SSA Organizational Chart
                          INTRODUCTION


OBJECTIVE
The purpose of this audit was to assess how effectively the Social Security
Administration (SSA) processes income alerts.

BACKGROUND

The Supplemental Security Income (SSI) program provides cash assistance to
financially needy individuals who are aged, blind or disabled. To determine if an SSI
applicant is financially eligible, SSA performs an initial determination at the time of
application and conducts periodic reviews to determine whether the recipient remains
eligible. SSI recipients are required to report events that may affect their financial
eligibility for benefits, including changes in income, resources, marital status, and living
arrangements. SSA generally relies on matching computerized data from other Federal
and State agencies to verify that the information is correct. When these computer
matches identify discrepancies between data reported by recipients and the data
recorded by these agencies, alert notices are sent to SSA field offices (FO). These
alerts require that the FOs determine if the discrepancies impact SSI benefits.

We reviewed seven categories of income alerts. A brief description of the computer
match that generates each type of income alert follows:

•	 5B alerts result from comparing income and resources, primarily interest and
   dividends, reported on Internal Revenue Service (IRS) Form 1099 to the
   Supplemental Security Record (SSR). These income alerts are issued each year on
   May 1, July 1 and November 1.

•	 5H alerts result from comparing pension, annuity and retirement account data
   reported on IRS Form 1099 to the SSR. These alerts are also issued each year on
   May 1, July 1 and November 1.

•	 K6 alerts result from comparing earnings reported on IRS Form W-2 and Schedule
   SE (self-employment) from the SSA Master Earnings File (MEF) to the SSR.
   Deemed income alerts occur if a recipient's date of eligibility is January of the
   tax year (TY) or earlier and earnings on the MEF exceed the amount on the SSR by
   $1,000 or more. Deemed income alerts are issued each year in January or March
   and August.

•	 K7 alerts result from comparing earnings reported on IRS Form W-2 and Schedule
   SE from the MEF to the SSR. Deemed income alerts occur if a recipient's date of


                                             1
   eligibility is later than January of the TY and earnings on the MEF exceed the
   amount on the SSR by $2,000 or more. Also, either the MEF contains an amended
   earnings report or the SSR does not reflect any earnings for the deemor. Again,
   deemed income alerts are issued each year in January or March and August.

•	 S2 alerts result from comparing wage data from the States to the SSR. These alerts
   were issued each year at the end of March and September. After our data was
   collected, the alert was replaced by a computer match initiated with the Office of
   Child Support Enforcement (OCSE) data base to include quarterly wage and
   unemployment compensation income.

•	 Self Employment Income (SEI) alerts result from comparing SEI reported on IRS
   Schedule SE to the SSR. SEI alerts are issued each year in May based on tax
   return data.

•	 U5 alerts result from comparing unemployment compensation data from the States
   to the SSR. These alerts were issued each year in February and August. After our
   data was collected, the alert was replaced by a computer match initiated with the
   OCSE database to include quarterly wage and unemployment compensation
   income.

Errors in reporting recipients' income have historically been the most significant cause
for stopping SSI benefits. In 1998, SSA estimated that 46 percent of all stop-payment
actions were related to income issues. The SSA Program Operations Manual System
(POMS) states that FOs should give income alerts high priority. (SI 02310.005)

SCOPE AND METHODOLOGY

We extracted 275,583 income alerts from the SSR dated between January 1, 1997 and
July 31,1998 that were unresolved at August 27, 1998. We separated this population
into seven strata, one for each type of income alert. We then randomly selected sample
alerts from each of the 7 strata until 30 alerts were identified that required resolution
action. (See Appendix A for the sampling methodology.)

To complete our review, we:

• reviewed applicable sections of the POMS;

•	 interviewed appropriate SSA staff at the Great Lakes Program Service Center, three
   FOs and SSA Headquarters;

• reviewed seven stratified random samples of income alerts;

•	 reviewed recipients’ SSI record displays (SSIRD), detailed earnings queries and all
   supporting alert documentation provided by applicable FOs; and



                                            2
• reviewed questionnaires sent to FOs responsible for resolving the sampled alerts.

We identified errors from sampled income alerts as preventable overpayments based
on processing delays and FOs not always using income estimates when appropriate.
POMS states that the recipient has 30 days to respond to the initial request for
documentation regarding income related to an alert. POMS further states that the
recipient can be granted an additional 30 days to provide the requested documentation
to the FO (SI 02301.235B, F and H). Thus, the FO should receive the necessary
documentation to resolve the alert within 60 days. Since income alerts are considered
high priority, we defined a processing delay as occurring when an income alert was
completed beyond 60 days after it was issued. However, POMS does not specify a
timeframe for completion of these alerts.

We calculated preventable overpayments based on paid benefits that would not have
been disbursed if the alert were properly resolved within a 60-day period. We also
included paid benefits as preventable if FOs should have estimated future income when
processing alerts. We then projected the results of our sample review to the population
using a statistical software package for variable and attribute analysis of a stratified
random sample. All estimates in our report are midpoint projections.

We performed audit work in Cincinnati, Ohio; Indianapolis, Indiana; Chicago, Illinois;
and Baltimore, Maryland. Our fieldwork was conducted during May 1998 through
April 2000. We conducted our audit in accordance with generally accepted government
auditing standards.




                                           3
                                       RESULTS OF REVIEW


Our review disclosed that an estimated $60.4 million in overpayments could have been
prevented if SSA had more effectively processed income alerts. Preventable
overpayments occurred because of delays in resolving alerts. Further, FOs did not
establish income estimates to reduce future benefits to offset expected income. We
based our estimate of preventable overpayments on a stratified statistical sample of
435 income alerts randomly selected from a population of 275,583 alerts. We also
estimated that 34,960 income alerts in our population had preventable overpayments.
The estimated amounts of preventable overpayments by alert type are summarized
below:



                               Figure 1: Estimated Preventable Overpayments by Type of Alert



                                                                                          $23,878,239
  Amount (in millions)




                                                                 $17,031,629

                         $11,557,686

                                       $6,388,631

                                                    $1,191,104                 $397,513                 $0

                             5B           5H           SEI           K6          K7           S2        U5
                                                             Type of Alert



We also determined the average number of months SSA took to process 218 sampled
income alerts that were completed. On the average, SSA used 10 months to complete
the development of these alerts. The months needed to process the alerts by each
category are shown below.




                                                                     4
                                Figure 2: Alert Processing Time by Type of Alert


                      14
                                     12
                      12   11                               11       11
  Processing Months




                                                                                        10
                      10
                                                8                                  8
                      8
                      6
                      4
                      2
                      0
                           5B       5H         SEI          K6       K7            S2   U5
                                                     Type of Alert



Income Alert Processing

When a computer match between SSA systems and third party information results in
income differences on a SSI recipient’s record, FOs are notified to investigate. These
alert notices are sent directly from SSA Headquarters to the appropriate FO where they
are assigned to a claims representative (CR) for development and completion. When
some types of alerts are generated, hard copies are sent directly to CRs. An example is
the S2 earned income alert. Other alerts, such as the 5B and 5H, are maintained on the
Central Office Records Center (CORC) system until alert development begins. Should
the CR need a copy of an alert from the CORC, it can be obtained overnight. When
alerts are recorded, the type and date are placed on the recipient’s SSIRD.

FO staff generally agreed that the only guidance over alert processing was to resolve
them by September 30th, the end of each fiscal year (FY). SSA measures FO
productivity based on the number of alerts per work year that were completed during the
FY. Thus, allowing alerts to roll over into the next year’s workload would adversely
impact SSA’s work processing goals, which are used to measure the effectiveness of
FOs.

SSA has introduced the new “StaRZ and Stripes “ software, which enables FO managers
to better control alert workloads so that income alert processing is completed on a more
timely basis. Another emerging management tool is SSA’s “Unified Measurement
System” (SUMS). The vision of SUMS is to ensure that managers at all levels have the


                                                        5
data they need to allocate resources, forecast workloads, and monitor customer service.
We believe that both the new software and the system enhancements will improve the
timeliness of working alerts.

Examples of Preventable Overpayments

To illustrate the impact of delaying the processing of income alerts and not establishing
income estimates to prevent future SSI overpayments, examples from various strata are
discussed below.

 •	 We reviewed a 5B alert that was issued on November 1, 1997. Alert development
    disclosed that the SSI recipient had $11,000 in the bank. The FO completed the
    alert on August 27, 1998 and recorded an overpayment of $16,044 on the
    recipient’s SSIRD for the period September 1996 through September 1998. SSA
    could have prevented $5,853 from being paid to the recipient had the FO
    completed this alert within 60 days from when it first appeared on the SSIRD. We
    reviewed another 5B alert that was issued on November 1, 1997. The FO
    completed the alert on February 12, 1999 and recorded an overpayment of
    $15,803 on the recipient’s SSIRD. SSA could have prevented $7,526 from being
    paid to the recipient had the FO completed this alert within 60 days from when it
    first appeared on the SSIRD.

 •	 We reviewed a 5H alert that was issued on October 2, 1997. Alert development
    disclosed that the SSI recipient had a teamster pension of $4,752 per year. Since
    the SSI recipient did not report the pension, SSA paid him a full monthly benefit.
    The FO completed the alert on September 23, 1998 and recorded an overpayment
    of $9,024 on the recipient’s SSIRD for the period October 1996 through
    October 1998. SSA could have prevented $3,384 from being paid to the recipient
    had the FO completed this alert within 60 days from when it first appeared on the
    SSIRD and established an income estimate. We reviewed another 5H alert that
    was issued on October 2, 1997. Alert development disclosed that the recipient had
    $25,000 in a retirement fund while obtaining SSI benefits. The FO completed the
    alert on October 29, 1998 and recorded an overpayment of $14,987 on the
    recipient’s SSIRD. SSA could have prevented $4,195 from being paid to the
    recipient had the FO completed this alert within 60 days from when it first appeared
    on the SSIRD.

 •	 We reviewed a K6 deeming alert that was issued on March 29, 1997. Alert
    development resulted in the identification of updated wages for one parent of the
    recipient. The FO completed the alert on October 27, 1998 and recorded an
    overpayment of $4,494 on the recipient’s SSIRD for the period September 1996
    through November 1998. SSA could have prevented $3,231 from being paid to the
    recipient had the FO completed this alert within 60 days from when it first appeared
    on the SSIRD and established an income estimate. We reviewed another K6 alert
    that was issued on October 2,1997. The FO completed the alert on April 2, 1999
    and recorded an overpayment of $10,345 for the period March 1997 through


                                            6
       April 1999. SSA could have prevented $5,031 from being paid to the recipient had
       the FO completed this alert within 60 days from when it first appeared on the
       SSIRD and established an income estimate.

    •	 We reviewed an S2 alert that was issued on March 30, 1998. Alert development
       resulted in identifying unreported wages. The FO completed the alert on March
       31, 1999 and recorded an overpayment of $3,802 for the period February 1997
       through April 1999. SSA could have prevented $1,915 from being paid to the
       recipient had the FO completed this alert within 60 days from when it first appeared
       on the SSIRD and established an income estimate. We reviewed another S2 alert
       that was issued on June 28, 1997. The FO completed the alert on November
       12, 998 and found an overpayment of $6,072 for the period August 1996 through
       October 1998. SSA could have prevented $3,821 from being paid to the recipient
       had the FO completed this alert within 60 days from when it first appeared on the
       SSIRD and established an income estimate.

We calculated that SSA took an average of 10 months to resolve 218 sampled income
alerts that were processed to completion. As a result, we identified significant
overpayments that SSA could have prevented by resolving the alerts in a more timely
manner. The United States General Accounting Office (GAO) reported that SSA
recovers only 15 percent of SSI overpayments.1 SSA informed us that a
September 1998 study showed a total recovery rate much closer to 60 percent. The
reason for the variance from the rate calculated by GAO is explained in Appendix B.

Also, overpayment collections from recipients who continue to receive benefits tend to
require a long time period. The reason is that regulations allow SSA to recover a
maximum of 10 percent of a recipient's Federal Benefit Rate. For example, at the
current benefit rate of $512 monthly, SSA would take almost 5 years to recover an
overpayment of $3,000. Therefore, SSA can both reduce losses from unrecoverable
overpayments and reduce total overpayments outstanding by improving the timeliness
of resolving these alerts.

Questionnaire Responses From SSA Field Offices

We sent a questionnaire at the start of our review to the FOs included in our sample.
The reasons most frequently given by FO employees for delays in working alerts were
other workload concerns and delays related to income verifications. The responses
indicated that SSA had no system in place to keep track of the length of time the alerts
were unresolved. Only 2 of 50 FOs responding to our questionnaire used the “StaRZ
and Stripes” software to track alerts to completion.

We reviewed the “StaRZ and Stripes” management guide. It is an Access application
that FOs can use to control and process alert workloads. The application can be used


1
  Supplemental Security Income: Opportunities Exist for Improving Payment Accuracy
(GAO/HEHS-98-75) March 27,1998.


                                                 7
to generate listings of income alerts from the CORC system and to send notices to
recipients and verification letters to employers about income.

The “StaRZ and Stripes” software can also be used to produce management reports.
For example, lists can be generated of all pending alerts showing their status. The
software can also provide managers with a summary of alerts at the end of a FY. The
software has over 20 management reports available and can be adapted to end-user
needs. We believe that SSA should expand the use of automated processes like this
system to all FOs to monitor and control the processing of alerts.

Alert Error Analysis

The most significant type of alert relates to wages or earned income (S2). The S2 alerts
accounted for 117,617 (42.7 percent) of the 275,583 income alerts in our population.
The S2 alerts accounted for a proportionate amount of the preventable overpayments or
about $23.9 million (39.6 percent) of the $60.4 million in total preventable
overpayments. As discussed earlier in the report, a computer match done quarterly with
the OCSE database to include wage and unemployment compensation income
replaced the alert. This allocation of alerts throughout the year should assist SSA in
focusing FO resources to process these alerts more timely.

The next most significant alert also relates to earned income (K6), but involves
individuals whose income may be deemed to recipients. The K6 alerts accounted for
82,355 (29.9 percent) of the 275,583 income alerts in our population. Similar to the
results of the S2 alerts, the K6 alerts accounted for a proportionate amount of the
preventable overpayments, or about $17.0 million (28.1 percent) of the $60.4 million in
total preventable overpayments. To the extent that these alerts are issued early in the
calendar year, they need to be controlled and FO resources focused on timely
processing to reduce preventable overpayments.

The third most common income alert (5B) involves the matching of IRS 1099 income,
interest and dividends, with the SSR. The 5B alerts accounted for 31,748
(11.5 percent) of the 275,583 income alerts in our sample population. However, the 5B
alerts accounted for a larger proportion of the preventable overpayments, or about
$11.6 million (19.2 percent) of the $60.4 million in total preventable overpayments. The
reason was that our sample results indicated that the 5B alerts had a significantly higher
average overpayment per alert sampled than the other types of alerts.

The 5H alert is the only other alert in our sample that accounted for a higher percentage
of preventable overpayments than its share of total alerts. The 5H alert matches
pension, annuity and retirement income from the IRS Form 1099 with the SSR. The
alert represented only 24,422 (8.9 percent) of the 275,583 alerts in our sample
population, but accounted for $6.4 million (10.6 percent) of the $60.4 million in total
preventable overpayments. Again, we recommend that SSA identify and monitor the
processing of these alerts at the time they are issued to improve the timeliness, thereby
reducing preventable overpayments.


                                            8
The four types of income alerts discussed above accounted for 256,142 (92.9 percent)
of the 275,583 alerts in our sample population. More importantly, these alerts
accounted for about $58.9 million (97.6 percent) of the $60.4 million in total preventable
overpayments. The results for the remaining three alerts were immaterial.




                                            9
 CONCLUSIONS AND RECOMMENDATIONS


We identified an estimated $60.4 million in preventable overpayments that resulted from
SSA processing income alerts untimely and the inconsistent use of income estimates.
We also noted that SSA has an inadequate control process to monitor the timely
processing and age of outstanding alerts. SSA needs to ensure that FO management
focuses on the timely processing of income alerts throughout the year.

SSA is aware that the failure of recipients to report changes in unearned and earned
income results in overpayments of SSI benefits. They are also aware that computer
matches to detect these changes in income are often completed months after the
income was received, contributing to the untimely detection of overpayments. Thus, it is
important that SSA (1) prioritize the development of income alerts resulting from
computer matches and (2) complete development of income alerts within 60 days to
minimize the delay in detecting and preventing future overpayments to SSI recipients.
SSA also needs to remind FOs that income estimates reduce potential future
overpayments of SSI benefits. These actions are necessary because of the failure of
recipients to provide timely reporting of changes in unearned and earned income.

SSA is presently developing SUMS to provide FO management with the ability to
measure all workloads and make informed decisions on how best to manage work and
resources. SSA expects SUMS will be implemented over a period of 5 years. Until
development is completed, we believe that an automated process, such as the “StaRZ
and Stripes” software, should be used to monitor the processing of income alerts and
the allocating of resources.

We calculated that SSA took an average of 10 months to resolve sampled income alerts
that were processed to completion. As a result, we identified significant overpayments
that SSA could have prevented by resolving the alerts more timely. GAO reported that
SSA recovers only 15 percent of SSI overpayments. Also, overpayment collections
from recipients who continue to receive benefits tend to require a long time period.
Therefore, SSA can both reduce losses from unrecoverable overpayments and reduce
total overpayments outstanding by improving the timeliness of resolving these alerts.

RECOMMENDATIONS
We recommend that SSA:

1. 	 Develop a plan to ensure that income alerts are worked more timely and income
     estimates are used.




                                           10
2.	 Require all FOs to use an automated process, such as the “StaRZ and Stripes”
    computer software, to manage alert workloads and minimize delays in starting alert
    development.

3.	 Revise POMS to clearly state that these income alerts be resolved within 60 days
    after being issued.

AGENCY COMMENTS
In its response, SSA has recognized the need to process income alerts more effectively.
SSA generally agrees that income alerts should be worked more timely and has multiple
methods in use to monitor this workload. The full text of SSA comments is included in
Appendix B.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We acknowledge the steps that SSA has taken and is implementing in regard to our
recommendations. We believe that SSA’s responses and planned actions adequately
address our recommendations.




                                          11
APPENDICES

                                                                           APPENDIX A



                SAMPLING METHODOLOGY


We obtained a data extract on August 27,1998 from the Social Security Administration
(SSA) of unresolved income alerts for the period January 1 1997 through July 31,1998.
The extract identified 275,583 income alerts. The following table distributes our
population into types of alerts.

                         Table 1 - Distribution of Population
                            Stratum                 Population
                       5B Income Alerts                 31,748
                       5H Income Alerts                 24,422
                       SEI Income Alerts                 9,660
                       K6 Income Alerts                 82,355
                       K7 Income Alerts                  5,309
                       S2 Income Alerts                117,617
                       U5 Income Alerts                  4,472
                             Total                     275,583

We then randomly selected sample cases from each of the 7 strata until 30 alerts were
identified that required SSA to take resolution action.

Our sampling method called for our review of 30 cases with certain measurable
characteristics, from each of the 7 strata. In order to achieve this goal we examined
more than 30 cases in each of the strata. For the 7 strata that we are projecting to the
universe, we reviewed a total of 435 cases. Those cases that were replaced by spares
were included in our projection as zero dollar values.

We defined an error as any alert that was not processed within 60 days after issuance.
Our results of the estimated amount of overpayments and the estimated number of
alerts contained in our population are as follows:




                                           A-1
                Table 2 – Sample Results – Estimated Overpayments
                                     Number                           Estimated
        Stratum      Sample Size     of Errors       Amount            Amount
           5B           42               6         $15,289.87       $11,557,686
           5H           64               9          16,741.97         6,388,893
          SEI            60              12          7,398.16         1,191,104
           K6            83               8         17,165.02        17,031,629
           K7           100              6           7,487.54           397,513
           S2            42               6          8,526.71        23,878,239
           U5           44               0                  0                 0
         Total          435              47        $72,609.27       $60,444,802

We are 90 percent confident that the actual overpayment due to the untimely
processing of alerts is between $32,969,021 and $87,920,584.

             Table 2.1 – Sample Results – Estimated Number of Alerts

                                              Number of          Projected
              Stratum       Sample Size        Errors             Errors
                 5B             42                 6                4,535
                 5H             64                 9                3,434
                SEI             60                12                1,932
                 K6             83                 8                7,938
                 K7            100                 6                  319
                 S2             42                 6               16,802
                 U5             44                 0                    0
               Total           435                47               34,960

We are 90 percent confident that the actual number of alerts not processed timely is
between 22,996 and 46,925.

We defined a processed income alert as an alert in which development was completed.
The remaining 217 alerts were not completed because (1) the recipients were in non-
payment status, (2) alert information had already been developed, or (3) not enough
information was available to resolve the alert.

We computed the processing time for each alert from the date the alert was issued until
development was completed. We computed the average processing time for each
stratum by dividing the number of days it took to develop each alert into the total
number of days for all alerts. We computed the total average processing time for all
seven stratum by dividing the total time used to process all of the completed alerts by
the total number of completed alerts.

The results of our analysis of alert processing timeframes are as follows:



                                           A-2
     Table 3 – Processing Time of Sample Cases
                            Number of      Average
                              Alerts     Processing
Stratum    Sample Size      Processed   Time (Months)
   5B          42                33            11
   5H          64                30            12
  SEI          60                31             8
   K6          83                30            11
   K7         100                34            11
   S2          42                30             8
   U5          44                30            10
 Total        435               218            10




                         A-3

                APPENDIX B



SSA COMMENTS

                                          SOCIAL SECURITY
                                        Office of the Deputy Commissioner
MEMORANDUM


Date:      September 21, 2000                                                     Refer To:   SJ1-3

To:        James G. Huse, Jr.
           Inspector General

From:      William A. Halter
           Deputy Commissioner of Social Security

Subject:   Office of the Inspector General (OIG) Draft Report, “Review of Controls Over Processing
           Income Alerts Which Impact Supplemental Security Income Payments” (Audit Number
           21998027)—INFORMATION


           Our comments to the subject report are attached. Staff questions should be directed to
           Neil Cunningham on extension 52290.

           Attachment:
           SSA Response




                                                         B-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, "REVIEW OF
CONTROLS OVER PROCESSING INCOME ALERTS WHICH IMPACT
SUPPLEMENTAL SECURITY INCOME PAYMENTS" (A-05-98-21002)

Thank you for the opportunity to review the subject draft report. We offer the following
comments.

Recommendation #1

SSA should develop a plan to ensure that income alerts are worked more timely and income
estimates are used.

SSA Comment

We concur with this recommendation and have initiatives underway to implement it.

In October 1998, SSA published the Supplemental Security Income (SSI) Management Plan.
This report calls for new and more frequent data matches, more redeterminations, profiling of
redeterminations, increased access to State records online, access to the Office of Child Support
Enforcement databases online, improved debt collection and improved management focus on
payment accuracy. These initiatives included training and revised Program Operations Manual
System (POMS) instructions.

We will also issue additional instructions to all field offices (FO) by September 30, 2000,
including POMS references for developing good future income estimates and for posting these
estimates to individuals' SSI records. We will also include information about the methods
available to control income alerts and will emphasize the importance of processing these alerts
on a timely basis.

Recommendation #2

SSA should require all FOs to use an automated process, such as the "StaRZ and Stripes"
computer software, to manage alert workloads and minimize delays in starting alert
development.

SSA Comment

We concur with the intent of this recommendation; i.e., to minimize delays in starting alert
development. There are multiple methods available and currently in use for monitoring this
workload. Thus, mandating the use of "StaRZ and Stripes" would duplicate efforts for FO's
already using other systems. The main application available for this purpose is the SSI Diary
Workload Control Application, which was developed by the Chicago Region and is accessible
through its Web site. However, we will include information about StaRZ and Stripes in our
instructions to FO staff to ensure they are aware of all methods for managing alert workloads.




                                               B-2
Recommendation #3

SSA should revise the POMS to clearly state that these income alerts be resolved within 60 days
after being issued.

SSA Comment

We agree that resolving income alerts within a set number of days (e.g., 60) of issuance may be
an appropriate goal. However, we do not believe that it would represent an appropriate
processing time requirement/performance measure because it is not always cost effective and
does not always represent the best (i.e., most appropriately focused) customer service. This is
particularly true in cases when a redetermination is scheduled during, or shortly after, the target
60-day period. In these cases, it is often better to delay processing the alert until completion of
the redetermination. Such an approach represents a more effective use of resources and
minimizes the need to contact the recipient twice within a relatively short time frame. Given
SSA's multiple and sometimes shifting workload priorities, maintaining flexibility in workload
management is essential. However, as stated above, we will issue additional instructions and
guidelines to our FOs by September 30, 2000, and will include a reminder that alerts should be
worked, whenever possible, within 60 days.

Additional SSA Comments

OIG's report (cf. page 7) makes reference to a previous report by the General Accounting Office
(GAO): Supplemental Security Income: Opportunities Exist for Improving Payment Accuracy.
In the latter, (cf. page 5) GAO indicates "…SSA statistics show that on average, the agency
recovers only about 15 percent of all outstanding overpayments." It appears that the figure
reference by GAO represents the SSI debt collection rate as a simple percentage of total pending
overpayments for one year (1996). Such an approach is misleading. To recover overpayments,
SSA may not withhold more than 10 percent of current payments. This restriction results in a
suppressed recovery rate that spreads collections over a longer period of time. Consequently,
SSA's Officer of Quality Assurance and Performance Assessment (OQA) did a longitudinal
study of a sample of SSI overpayment debt from 1990 through 1997. The findings from this
study, presented in September 1998, showed that the longitudinal total recovery rate is actually
much closer to 60 percent (59.5%). We believe this is a much more accurate representation of
the percentage of SSI overpayment debt that SSA recovers.




                                                B-3
                                                       APPENDIX C



                        ACRONYMS

CORC    Central Office Records Center


CR      Claims Representatives


FO      Field Office


FY      Fiscal Year


GAO     General Accounting Office


IRS     Internal Revenue Service


MEF     Master Earnings File


OCSE    Office of Child Support Enforcement


POMS    Program Operations Manual System


SE      Self Employment


SEI     Self Employment Income


SSA     Social Security Administration


SSI     Supplemental Security Income


SSIRD   Supplemental Security Income Record Display


SSR     Supplemental Security Record


SUMS    Social Security Unified Measurement System


TY      Tax Year

                                                                            APPENDIX D



                OIG CONTACTS

         AND STAFF ACKNOWLEDGMENTS

OIG Contacts

Bill Fernandez, Director, Western Program Audit Division, (510) 970-1739

Barry Shulman, Deputy Director, (312) 353-0331

Acknowledgments

In addition to those named above:

   Richard Dubin, Auditor in Charge

   Tony Lesniak, Auditor

   Elizabeth Juarez, Auditor

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-05-98-21002.
                        APPENDIX E 



SSA ORGANIZATIONAL CHART

